<html>
<title> - FARM BILL ISSUES</title>
<body><pre>[Senate Hearing 107-872]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-872

                            FARM BILL ISSUES

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON AGRICULTURE,
                        NUTRITION, AND FORESTRY

                          UNITED STATES SENATE


                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION


                               __________

                            AUGUST 17, 2001

                               __________

                       Printed for the use of the
           Committee on Agriculture, Nutrition, and Forestry


  Available via the World Wide Web: http://www.agriculture.senate.gov

                                 ______

85-329              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


           COMMITTEE ON AGRICULTURE, NUTRITION, AND FORESTRY



                       TOM HARKIN, Iowa, Chairman

PATRICK J. LEAHY, Vermont            RICHARD G. LUGAR, Indiana
KENT CONRAD, North Dakota            JESSE HELMS, North Carolina
THOMAS A. DASCHLE, South Dakota      THAD COCHRAN, Mississippi
MAX BAUCUS, Montana                  MITCH McCONNELL, Kentucky
BLANCHE L. LINCOLN, Arkansas         PAT ROBERTS, Kansas
ZELL MILLER, Georgia                 PETER G. FITZGERALD, Illinois
DEBBIE A. STABENOW, Michigan         CRAIG THOMAS, Wyoming
BEN NELSON, Nebraska                 WAYNE ALLARD, Colorado
MARK DAYTON, Minnesota               TIM HUTCHINSON, Arkansas
PAUL DAVID WELLSTONE, Minnesota      MICHEAL D. CRAPO, Idaho

              Mark Halverson, Staff Director/Chief Counsel

            David L. Johnson, Chief Counsel for the Minority

                      Robert E. Sturm, Chief Clerk

              Keith Luse, Staff Director for the Minority

                                  (ii)

  
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing(s):

Farm Bill Issues.................................................    01

                              ----------                              

                        Friday, August 17, 2001
                    STATEMENTS PRESENTED BY SENATORS

Miller, Hon. Zell, a U.S. Senator from Georgia...................    01
                              ----------                              

                               WITNESSES

Adams, James Lee, Camilla, Georgia...............................    10
Campbell, Murray, Camilla, Georgia...............................    07
McGee, Mary Alice, Nashville, Georgia............................    06
McLendon, Robert, Chairman of the Executive Committee, National 
  Cotton Council.................................................    02
                              ----------                              


 
                            FARM BILL ISSUES

                              ----------                              


                        FRIDAY, AUGUST 17, 2001

                                       U.S. Senate,
         Committee on Agriculture, Nutrition, and Forestry,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 1:07 p.m. in the 
Georgia Center for Continuing Education, University of Georgia, 
Athens, Georgia, Hon. Zell Miller presiding.
    Present: Senator Miller.

   OPENING STATEMENT OF HON. ZELL MILLER, U.S. SENATOR FROM 
                            GEORGIA

    Senator Miller. I would like to bring the U.S. Senate 
Agriculture Committee to order and I would like to welcome 
everyone to this important and this very, I am sure going to 
be, informative Senate Agriculture Committee hearing.
    I look forward, as I know you do, to the testimony that we 
are going to have presented.
    Let me thank our three panelists. We may have a fourth 
coming in later, but the three panelists that we have here that 
are going to participate in this hearing are Mr. Bob McLendon 
of Leary; Mr. Murray Campbell of Camilla; and Mr. James Lee 
Adams of Camilla. Mary Alice McGee of Nashville, Georgia may 
come later.
    During their careers, these men have been tremendous 
advocates for southern agriculture. They have been active as 
local and state leaders, they have been dedicated servants for 
a better rural America and I commend them for that dedication 
to the agriculture industry and I thank you for testifying 
before this Committee.
    Over the last two days, we have heard from many 
agricultural producers. We have heard from researchers and 
organizational leaders. Many discussed improvements in current 
agricultural programs and others described innovations that 
they see as the future of American agriculture. I believe it is 
important to note that no matter what path agriculture chooses, 
the current situation in this nation's agriculture economy is 
critical. That is something that we all know and are aware of 
and that is why so many of you are here still for this hearing. 
It is imperative I believe that we act quickly to solve the 
problems plaguing our family farmers in order to ensure an 
abundant and safe American food supply throughout this century.
    The 1996 Farm bill is set to expire at the end of 2002. My 
colleagues in the House have moved very quickly this year. They 
have already developed a new farm bill, which most of you have 
had the opportunity to review. The Senate Committee has 
convened hearings all across this country, hearings like this 
one, gathering testimony to be used in crafting our version of 
the new farm policy.
    I will continue to urge my Senate colleagues to expedite 
this important legislation and many of the priorities in the 
new Farm bill I hope will including providing our farmers 
protection from dramatic fluctuations in commodity prices; a 
safety net to contend with destructive weather or low prices; 
conservation programs that provide incentives to farmers and 
are adaptable to many regions of the country; the necessary 
funding for food and nutrition programs that are so critical to 
our children and our elderly; rural development programs that 
will bridge the technology divide, thereby enabling communities 
to better educate their citizens and to also attract new 
industry; and increased resources for educational research 
institutions such as the one hosting us the past two days; 
enabling our farmers to maintain the leadership role in world 
food production.
    These are just a few of the challenges that we face here at 
what I think is a crossroads of American agriculture. The 
policies of the past have not worked, many have failed our 
farmers and the time for change is now. The information 
exchanged and debated during the symposium, I think is a 
positive step. I know it will help the Committee to develop a 
legislative blueprint designed to protect family farms for 
future generations.
    Once again, I want to welcome these panelists. I have read 
their prepared testimony, it is excellent, and I would like to 
ask them now, starting with Bob McLendon, to give us a brief 
summary of the testimony that you have submitted to this 
Committee.

    STATEMENT OF ROBERT MCLENDON, CHAIRMAN OF THE EXECUTIVE 
               COMMITTEE, NATIONAL COTTON COUNCIL

    Mr. McLendon. Thank you, Senator.
    My name is Bob McLendon and I operate a diversified farming 
operation in Leary, Georgia, but my primary crops are cotton 
and peanuts. I am immediate past president of the National 
Cotton Council and I presently serve as Chairman of the 
National Cotton Council's Executive Committee.
    Mr. Chairman, on behalf of the entire cotton industry, I 
would like to commend you for holding these hearings on farm 
programs and express our appreciation for the opportunity that 
we have today to testify.
    I want to focus this testimony on the next Farm bill, but I 
cannot discuss long-term policy without first thanking you and 
the Senate for taking action on the economic assistance package 
that was just passed and funds were delivered this week.
    As you know, the cotton industry is undergoing severe 
economic stress from producers throughout textile 
manufacturing. Depressed prices, increased costs and slack 
demand are threatening to shrink our infrastructure and 
drastically transform our industry. This highly competitive 
industry generates over $120 billion annually in revenue for 
the U.S. economy, and is worth fighting for.
    A successful cotton program starts with a non-recourse 
marketing loan and retention of cotton's three-step competitive 
provisions, including the ability to use a marketing loan 
certificate. Loan redemption provisions should be keyed to 
world market prices.
    These aspects of our program are fundamental. Beyond these 
fundamental components, we believe the next Farm bill must have 
improved income support. Our goal is income support from 
programs and the market that will provide cotton producers with 
a return equivalent to what they have received in recent years 
from all sources, including emergency assistance.
    With the objective of complying with our WTO commitments, 
we encourage as much reliance in decoupled AMTA-type payments 
as feasible. Additionally, we recommend some type of counter-
cyclical income support that is as coupled and as commodity-
specific as practical, given budget considerations and our 
commitments within the World Trade Organization.
    We provided fairly detailed analysis of different types of 
counter-cyclical programs in testimony we delivered to the 
Senate Ag Committee in July of this year. In much of this 
analysis, the National Cotton Council used a target revenue 
number based on total returns to the producer that was roughly 
equivalent to those returns received during the 1999 crop year. 
Since that time, the House Agriculture Committee has passe 
legislation that contains a new counter-cyclical payment 
program that conforms to many of our industry's 
recommendations. It has received a favorable response from 
cotton producers throughout the country even though it did not 
quite reach the revenue goals described in our earlier 
testimony.
    Our members also support maintaining as much cropping 
flexibility as possible, providing farmers the option of 
updating their acreage bases and the continuation of cottonseed 
assistance.
    The National Cotton Council has consistently been opposed 
to payment limits. We believe limits on marketing loan gains 
are particularly counter-productive as they hurt producers' 
access to marketing loan benefits when they need it the most, 
when prices are low certainly as we have had in the last three 
or four years. If these limits are not eliminated, then we urge 
the Congress to keep the three entity rule, retaining 
provisions for the CCC loan redemption with marketing 
certificates and provide for separate and reasonable limits for 
each category of benefits.
    Mr. Chairman, our internal discussions have not led to the 
cotton industry having a consensus on loan rates. Our producer 
members favor a loan rate not less than 55 cents, while our 
merchant segment oppose anything above 55 cents. Certainly it 
looks like we could have come to agreement, and we are close, 
we probably will be able to do that before the discussions are 
over.
    There is another serious issue confronting the U.S. cotton 
industry. Our sector is especially vulnerable to the effect of 
an appreciating dollar because of its impact on imports of 
textile apparel and textile goods into our country. The 
continuing strength of the U.S. dollar has led to a surge in 
textile imports that has taken a tremendous toll on our textile 
manufacturing industry in our country. During the first 6 
months of this year--during the first 6 months of this year--45 
textile plants have been closed and 15 million jobs have been 
lost, in the southeast particularly. A lot of these are in 
Georgia.
    Last month, the U.S. mills consumed cotton at a annual rate 
of just under eight million bales. That compares to a 
consumption of 11.4 million bales just a year ago. We have lost 
some of the biggest names in textiles to bankruptcy. Every week 
we hear of another mill closing.
    Cotton producers, ginners, merchants, textile executives 
are asking what can be done to salvage the domestic textile 
industry. Our industry is facing the stiff international and 
domestic competition to the greatest degree I can ever 
remember. Five countries--China, the United States, India, 
Pakistan and the former Soviet Republics--produce about 70 
percent of the cotton in the world. China, India and Pakistan 
and many developing countries are committed to the textile 
production and they are, through one mechanism or another, 
subsidizing their production or manufacturing. In a lot of 
cases, they are subsidizing both of those.
    Their determination to capture the U.S. textile market, 
combined with the competitive advantage they received from the 
strong U.S. dollar, is a one-two combination that is laying 
waste to a manufacturing sector of considerable importance to 
Georgia and the entire southeast United States.
    I have attached to my testimony, a document prepared by the 
National Cotton Council entitled ``An Industry in Crisis'' that 
details the bleak economic conditions in the U.S. textile 
industry. Mr. Chairman, our industry has generated a number of 
options for assistance, but the one that could do the most 
significant amount of good in the near term is the elimination 
of the 1.25 cent threshold under the step two program that we 
have for cotton. Eliminating the 1.25 cent step two threshold 
will not be enough, but it will be a start in the right 
direction. Beyond that, we need to find other ways to help 
offset the devastating impact of the strong dollar.
    The Council's economic staff estimates that if the value of 
the dollar had not risen from its 1995 relationship to other 
currencies, today's rate of U.S. mill consumption would be 
approximately 12.3 million bales, about 4.5 million bales 
higher than the actual rate that we have today. Think how far 
that would go toward solving cotton's price and offtake 
dilemma.
    In the interest of time, Mr. Chairman, I will refer the 
Committee to my written testimony. In it, we stress the 
importance of a strong export program, express our concerns 
about negotiations concerning the export credit guarantee 
program and indicate our support for continuing existing 
conservation programs. However, Mr. Chairman, we cannot help 
but take a first-things-first approach in this debate. Without 
an adequate farm program, our producers will not be able to 
continue in business. We are concerned that the current 
spending authority Congress has provided for developing a new 
farm bill may be inadequate to provide the necessary levels of 
support, along with the significantly and increased 
conservation spending.
    Mr. Chairman, thank you for holding this hearing and I will 
be pleased to respond to questions at the end. Thank you.
    Senator Miller. Thank you very much. I am going to be 
meeting with some of the textile manufacturing people, what is 
left of them, next Thursday, and I appreciate your comments.
    Mr. McLendon. Thank you.
    Senator Miller. Let me ask you this. I may have a question 
individually as we go along and then we will have several at 
the end.
    You talked about the AMTA coupled type mechanism as a good 
method to get proper income assistance to farmers. Besides 
doing something about updating base, have you heard any 
complaints about getting this kind of proper income assistance 
to farmers given?
    Mr. McLendon. No, sir, not really. We have become 
accustomed to an AMTA type payment that we receive in the 
spring of the year before we plant our crop. It goes a long way 
and helps the farmer to plan his income needs for the upcoming 
crop. You know, there is no excuse to do things because it has 
been done that way, but it has been a good program and farms 
have come to look to that. It is a good program.
    Another reason that we at the Cotton Council recommended 
that type program is to comply with the WTO rules that we 
agreed with. That is how we came up with the AMTA type payment 
as part of the income delivery. Maybe a little criticism of 
that program has been that when prices are high, we will still 
get that payment, but in order to comply with the rules that I 
did not make, that is the reason we recommend it.
    It is a good program, it is a good program for the country, 
and even without WTO requirements, I would recommend that we 
have that program.
    Senator Miller. Needs to have updated base though, right?
    Mr. McLendon. Yes, sir, we recommended updated base and we 
have received some criticism because we have not--did not 
recommend updated yields that are frozen at 1985 levels and if 
we had had the money, Senator, to have updated the yields, we 
would have been 100 percent in favor of doing that. It was 
going to be a very expensive program. The budget that was 
passed, funds allocated for the program just were not adequate.
    We in the southeast have increased our cotton acreage, I 
mentioned it yesterday, from 120,000 acres in 1982 to a million 
six. Well, under the 1995 Farm bill, our AMTA payment was based 
on about 800,000 acres, whereas this year we are planting a 
million six. There is a lot of acres that we were not getting 
payment and we felt like that it was only fair that we update 
the acres. It helps more us in the southeast than it does a 
producer in the mid-south or Texas or California.
    This is a program that we in the southeast that represent 
cotton interested worked really hard to get this done and it 
made good sense. That is the reason we were able to convince 
the other producers in other parts of the country to go along 
with it. It is going to benefit Georgia a great deal. It will 
benefit Bob McLendon and we thought it was only fair that we 
have the opportunity to do that. It is not going to hurt the 
guy that does not update his bases. You take a mid-south 
producer that has gone from cotton to corn, his AMTA type 
payment will be less because his corn payments are less, but he 
has the option of maintaining his old payment under the Freedom 
to Farm, in the House version. I do not know what we will have 
in the Senate.
    Anyway, it is a good program for a Georgia farmer.
    Senator Miller. Thank you very much.
    Senator Miller. Our next panelist is Ms. Mary Alice McGee 
of Nashville, Georgia. Mary Alice, you were on time. I know you 
have come a long ways this morning and you were on time, we 
just started a little early.
    Thank you for being here and thank you for making that 
effort to be here.

       STATEMENT OF MARY ALICE MCGEE, NASHVILLE, GEORGIA

    Ms. McGee. Thank you.
    Senator Miller, thank you for this opportunity today to 
testify in the Senate bill hearing. I am Mary Alice McGee from 
Nashville, Georgia. I am a tobacco quota owner, farmer, 
housewife and president of the Berrien County Chamber of 
Commerce.
    The economy in Berrien County is predominantly comprised of 
agriculture. Within our economy, tobacco has for years been a 
mainstay and that is what I am here to talk about today.
    I want to tell you a story I heard at a tobacco warehouse 
just this week. A friend's father passed away about 6 months 
ago. Later, as they were going through his belongings, a sales 
bill for tobacco was found from the year 1932. On this bill, 
there was 600 pounds of tobacco and he received a check that 
day for $6.00. In 1933, Congress passed the Agricultural 
Adjustment Act to protect farmers from being subjected to the 
monopsony powers of the tobacco companies.
    This Act was repealed and reinstated in 1938. The Act of 
1938, which became known as the Federal Tobacco Program, gave 
farmers production controls and support prices for their 
tobacco. In 1983, the program became self-supporting with what 
is known as the no net cost program. The upside to this was 
that the program was made able to support itself, using no 
taxpayer's money. The downside was that the program was written 
by tobacco company employees who slanted the language in their 
favor.
    As we move forward to 1998, 1999 and 2000, we have 
witnessed probably the strongest case of oligopsony abuse in 
U.S. history. Prices for tobacco have been fixed, auctions 
rigged and tobacco companies have cut quotas by over 44 
percent. Also in 1999 and 2000, the tobacco companies and leaf 
buyers forced contracts on farmers by telling them ``sign now 
or be left out, the tobacco program is over and you had better 
get on board and get a contract,'' and any other tactic that 
they could use to persuade farmers to abandon the tobacco 
program.
    The effort to kill the program will probably be successful 
this year. With few auctions being held at a 20 cents per pound 
higher contract price than auction price, farmers have been 
lured to abandon the auction systems. During all of this 
maneuvering on the part of the companies, the United States 
Department of Agriculture has taken no position on rules 
regarding contracts and has allowed the companies to destroy 
the farmers only protection from these large multi-national 
corporations; namely, the Federal Tobacco Program.
    The companies' manipulation and the ultimate destruction of 
the Federal Tobacco Program will directly negatively impact the 
livelihoods of over 500,000 people in 13 states and cripple the 
economies of the communities in which they live.
    Senator Miller, I call on you today to hold more Senate 
hearings, not only on tobacco, but all other commodities, so 
the farmer may be afforded a forum in which he may tell his 
story, a story of abuse of power wielded by large corporations, 
enabling them to buy farm products cheaper and control and 
eventually eradicate the independent family farmer.
    Again, thank you for giving me this opportunity.
    Senator Miller. Thank you very much for that testimony.
    Let me ask you this as we go along; take all these issues, 
some of which you have mentioned, that are facing tobacco 
growers today, like the drop in quota and the contracting and 
the labor and the retrofitting of tobacco barns, all of these 
things; if Congress could reach an agreement for a buyout of 
tobacco quotas, would, in your opinion, farmers in your areas 
continue to grow tobacco or would they move to an alternative 
crop of some kind?
    Ms. McGee. The farmers in our area would continue growing, 
but they would have to cut back to only use the barns that they 
were able to retrofit, whatever amount of acres that those 
barns could handle. I have heard none say they would quit. They 
would have to cut back just to use the ones that they had 
retrofitted.
    Senator Miller. Thank you.
    Now, Murray Campbell.

         STATEMENT OF MURRAY CAMPBELL, CAMILLA, GEORGIA

    Mr. Campbell. Thank you, Senator Miller, for the 
opportunity to come and give this testimony today.
    Before beginning, I would like to make it clear that these 
ideas are mine and mine alone and I am not representing any 
other group or entity today.
    Over the last couple of days of your symposium here on the 
Future of American Agriculture, we have heard some very 
interesting presentations. Some offer encouragement and hope 
for a bright future and some were quite frightening. We were 
left with little doubt that agriculture is undergoing profound 
change as we move toward globalization of our economy. There is 
no way that I as a dirt-under-the-fingernails farmer from the 
struggling rural county that derives about 70 percent of its 
economic activity from agriculture can have a vantage point to 
offer you any solutions better than the ones that you have 
already heard. I would like to highlight four areas that if 
addressed will help my friends and neighbors that you represent 
down in southwest Georgia.
    I like to think of the first three as a group. We need to 
look at them this way as they affect our ability to export into 
the world market and also our ability to compete with cheaper 
foreign imports. They are the regulatory burden we bear because 
we are producers from this great, caring nation. The penalty 
face is the strength of our U.S. dollar because of this great, 
stable and strong nation; the unintended and misguided 
imbalance in our trade policy that is tilted toward the 
technology and service sectors of our economy while placing 
less value on the hard-working, blue collar workers in the 
agriculture and manufacturing industries that built this great 
nation.
    We as a nation care about a lot of different things. We 
care that our workers are not exploited and have therefore 
instituted a minimum wage law that sets a minimum standard for 
the price of labor that we have to have to produce a crop. In 
today's agriculture with GPS technology in our tractors and 
agricultural chemical rates labeled in half ounce rates, the 
last thing on earth that I can afford is a minimum standard 
worker. I cannot compete with a Chinese farmer on the cost of 
labor to produce a crop. It is not just agriculture and it is 
not just China. I read last week that the State of Florida has 
been selling a Hawaiian shirt in their tollbooths for $39.95 
that is produced by foreign workers receiving $1.20 per hour--
the State of Florida.
    We also have OSHA standards to keep our workers safe and 
workmen's compensation insurance to provide for them if they 
are injured. Neither I nor any other farmer begrudges our labor 
force these benefits. They are in the public good, but the 
public is not paying for them--we are, and our competitors are 
not.
    Do we want to export our agriculture infrastructure, as we 
have by cutting textile jobs that have put many a child through 
college down in my area? Georgia alone has lost 5700 textile 
jobs in the last 12 months.
    Labor is not the only higher cost that we have to bear as 
U.S. producers. Every new regulation, like the new diesel 
sulphur emission standards that will increase the cost of an 
engine, add to a U.S. producer's costs. Better sulphur emission 
standards are in the public's best interest, but the public is 
not paying for it--we are and our competitors are not.
    There are many other examples of regulatory costs that need 
addressing, whether it is the added cost of registering 
products because of EPA requirements or whether it is simply a 
marketing decision by companies to charge whatever the market 
will bear, agricultural chemical prices are higher in the 
United States than they are in other countries. It is much the 
same as in the case of the pharmaceutical companies, and they 
and the big ag chemical companies are one and the same, 
charging less in other countries for prescription drugs. It is 
just not as practical for me in purchasing my crop protection 
chemicals to get on a bus and cross the border, as so many of 
our senior citizens have done to get their prescriptions 
filled. I simply have to pay the higher price--my competitors 
do not.
    Governmental regulations, even good ones in everyone's best 
interest, run up a U.S. producer's costs. I had the opportunity 
to have dinner a couple of winters ago with some folks from 
Australia that invest in agriculture. Farm press in the U.S. at 
that time was saying that declining cotton prices from around 
70 cent a pound to around 50 cent a pound was going to depress 
southern hemisphere plantings and that things would look better 
for our prices in the spring. I asked one of them about their 
cutback in acreage and I was informed that they intended to 
plant more. Well I exclaimed, ``How in the world can that make 
sense,'' he explained it to me as he would a backward child; 
that Australian cotton was priced off the New York Cotton 
Exchange in dollars and that at that time the dollar had risen 
by about 20 percent versus the Australian dollar. What it did 
is it more than compensated him for the decline in price. What 
he did not tell me and I figured out later was that he bought 
all of his crop inputs in Australian dollars, so when he made 
that sale, he discounted his inputs and his profits were 
increased.
    Now Senator, I am just a country boy. Am I going to have to 
learn to trade currency futures, as I have learned to have to 
buy puts and calls to be able to compete with the Australians 
in selling cotton? Once again, it is not just agriculture's 
problem. Here is a quote from a top General Motors executive 
that I read in the WALL STREET JOURNAL last week. He said, and 
I quote, ``There is an imbalance between the Euro and the yen 
that has gone beyond a reasonable boundary. The strong dollar 
is destroying the manufacturing capability of this country.'' I 
know exactly what he feels like.
    This all goes back to our trade policies. An excellent 
example of this comes to us from the debate that has been 
raging over the Canadian softwood lumber tariff. U.S. 
retailers, just the same as the State of Florida in selling 
their shirts, want the absolute cheapest price that they can 
get to sell to their consumers. In this particular case, Home 
Depot and other lumber retailers want to benefit from the 
increase volume coming from lower prices. My wife owns some 
Home Depot stock that has been a pretty good investment, as 
that company has grown. It may be time to sell it, if they are 
focused more on their volume than on profitability. The bottom 
line is they do not care whether the lumber comes from the 
Canadian government that manages their timber for maximum 
employment or from a Georgia producer who employs best 
management practices to keep Georgia's water clean and pays 
property, state and Federal taxes on his sales.
    Senator Miller, I would like to thank you for how hard you 
work with this administration to have the 19.3 percent tariff 
levied against Canadian lumber last week. Thank you.
    I had a very lively discussion once with Senator Paul 
Coverdell on free trade and he convinced me how important it 
was to us as U.S. producers. I remember very distinctly that he 
very strongly that it needed to be a two-way street--fair 
trade.
    The last area I would like to address is conservation. I 
would like to applaud Senator Tom Harkins' leadership in this 
area. We as agriculture producers and rural landowners have 
always led the charge for good stewardship. We are practicing 
environmentalists. No one cares more about the wildlife habitat 
and water quality on my farm than I do. We hunt and fish our 
property and we are the ones that drink the water there. The 
wildlife my family enjoys every day is one of the great 
benefits of a rural lifestyle. There is no doubt in my mind 
that the best conservation program for rural America is 
profitability. If I have the money to spend, there is nothing 
that I would rather spend it on than conservation. Any new 
Federal programs in this area are welcome. I would just ask you 
as the Senate Ag Committee not to rob Peter to pay Paul. The 
funding for new conservation efforts should not come out of 
price support dollars. Reallocating those dollars to 
conservation efforts is misguided. It is not going to matter 
much to me if I have some wonderful conservation practices 
established on my farm and timberland and it is sold at the 
courthouse and someone else owns it.
    Conservation is in the public's interest. Seek to broaden 
the funding for these new programs to other areas of the 
Federal budget and not just out of the price supports that 
agriculture currently needs through the period of change.
    I discussed this with representatives from one of the 
largest environmental organizations in Georgia and I expect 
them to take a position on that in our favor.
    Globalization is new, change is not, change is always 
inevitable. What we are currently experiencing, however, is a 
change in the change itself. The rate of change has 
accelerated. That accelerated rate of change is what is causing 
the disruptions that are so painful to us as U.S. producers. We 
cannot adapt quickly enough, restricted by regulatory, monetary 
and trade issues well outside of our control.
    Since the ink started to dry on GATT and NAFTA, the WTO and 
the Free Trade Agreement of the Americas have made their way 
into agricultural jargon. Global markets are different. To 
borrow a quote from a book of the same title, ``Someone has 
moved our cheese.''
    We are the greatest nation in the history of the world. 
There is no reason that we cannot find ways to protect our 
agricultural infrastructure during this period of rapid change. 
The principles of marketing loans and target prices outlined by 
the House Agriculture Committee farm bill are great places for 
the Senate to start when you reconvene after the August recess. 
I would add the 2002 bill would be better than a 2003, for time 
is of the essence.
    With your help, we as U.S. producers will adapt and emerge 
stronger, more agile and with increased productivity, just as 
this nation has so many times in the past when challenged by 
change.
    We thank you for your help.
    Senator Miller. Thank you very much.
    I have a question or two, but let me go on to James Lee 
Adams right now and hear from you, James Lee.

         STATEMENT OF JAMES LEE ADAMS, CAMILLA, GEORGIA

    Mr. Adams. Thank you, Senator. I appreciate what you are 
doing, I appreciate your attention.
    Farm bills are written in the context of their times and 
that is one problem we have had. I have been associated with 
five or six of them now on different degrees of attention and 
what-have-you--involvement. Like generals that always plan the 
next war based on what happened in the last war, we have had a 
fatal error I believe in the Farm bills in the fact that we are 
doing it in the context of what is going on today. The best 
example was the 1996 Farm bill.
    I know there are quite a few folks that were concerned that 
something would happen in Asia, for example, which it did, to 
drop the income. The income of a farmer in the United States is 
totally dependent, to a large degree, on economic growth 
overseas since we export so much overseas. When that came apart 
in Asia, that essentially is one of the items that really 
unraveled our income in this country. Every other speaker has 
already alluded to the strength of the dollar and that has just 
absolutely been devastating.
    We have to start addressing regulatory questions, both 
domestically and overseas. We have to have questions of labor 
overseas and domestically. Currency fluctuations have to come 
to the forefront and income growth overseas and other items 
that we have never even taken into account that are going to 
impact us long term such as the AIDS crisis in Africa. We are 
literally losing multiple customers by the hundreds of 
thousands that would have been able to take off another 15 or 
20 years economically and really helped the agricultural sector 
in this country; we have so much losses in that area.
    You have a situation though, there are several--and those 
are probably beyond the purview of the Farm bill, all those 
questions are. There are some items that ought to be included 
within the Farm bill.
    The role of contracting in agriculture has got to be 
addressed. We know we are moving more and more to a situation 
where we are contracting in agriculture. I am a poultry 
producer, I know what that situation is like, and I see it 
coming in other crops, particularly in the crop of peanuts that 
I grow today. We will be contracting just like the tobacco 
folks and we are going to have a situation where we are facing 
these oligopolistic situations of manipulation of prices, 
setting of prices.
    I am former president of the American Soybean Association 
and I know what has happened within the soybean industry as far 
as prices of a product coming out of there. If that is not 
addressed, we in agriculture who are producers, are literally 
going to have to go to the point where our return on investment 
will be one and a half, 1 percent, like it is in some other 
contracting areas. That needs to be addressed at some point in 
time.
    APAC, when I was on that Committee, we told Jules Katz and 
we told Carla Hills at the time in 1990 that the currency 
fluctuations had to be addressed. There are some opportunities 
to really make some changes in that line. I do not think we 
have to go to those Draconian measures like adopting a 
hemispheric currency, but it has to be addressed because what 
we are doing today, we are--on the backs of the wealth creating 
sectors of the economy, we are destroying those by the strong 
dollar. Every sector--manufacturing, mining, commodity 
producing areas--are literally being destroyed.
    Now it is great when you go overseas and start spending 
money over there as a tourist. We are having a balance of 
payments that is just absolutely devastating our local 
industries in this thing. All those need to be talked about.
    Trade negotiations, we need to go ahead, and I know some 
farm organizations--again, I am like Murray, I am speaking 
entirely for myself--we need to put the sidebars in place and 
have minimum standards on labor and environmental standards and 
regulatory standards in these negotiations. They need to be in 
there, because if they are not, there is no way I or any other 
farmer can compete unless that field is level in those 
particular areas. I know that is going to be controversial.
    We also need to be looking--beyond the oligopolistic 
section of what is going on, we need to be taking a look at the 
Canadian Wheat Board, the Australian Wheat Board and other 
groups such as the Chinese when they purchase. There is no way 
I as a producer or a producer in this country can move those 
prices on the Chicago Board of Trade or the New York Commodity 
Board, but I can guarantee you one thing, these countries do 
it. Somehow or another, we have to start having more 
transparency of what is going on on those boards, because they 
can be moved and it can absolutely devastate what happens to a 
farmer in this country.
    Thank you.
    Senator Miller. Thank you very much.
    Let me ask you this, you've elaborated on it some, and 
Murray got into it and it has been mentioned several times 
during the course of this symposium, and that is the 
devastating effect of the strength of the U.S. dollar--what 
options are there out there to correct this situation that 
would not alter the national economy?
    Mr. Adams. We are going to have to pay a price on the 
national economy. You know, economics is a tradeoff at all 
times. The situation we are facing today is a complete tradeoff 
as far as our balance of payments, as far as those sectors of 
the economy that long-term produce well. Now we are assisting 
with this service sector, we are also assisting those sectors 
that import into this country as far as goods and services. We 
are literally destroying the wealth creating sectors of the 
economy of the United States, and I put agriculture in that 
sector.
    There has to be some changes in this area and if not, I can 
lose competitiveness by a devaluation of a currency in Brazil 
quicker than any other way, and it is a way which I have no 
control over at all. I can be completely competitive today, 
they can devalue the currency and I am out.
    Senator Miller. Murray, you want to say anything else about 
that, and I know Bob wants to say something.
    Mr. Campbell. Yes, sir. Bob and James have been involved 
with this a lot longer than I have. I am really quite honored 
to be on a panel with them, Ms. Mary Alice.
    I remember reading at the time, when he was talking about 
Carla Hills, that there has been some talk in the past about 
using some snapback provisions in some of the trade 
negotiations, so that if there were these major devaluations 
and fluctuations within these currencies, that you could level 
that playing field back out by using those--having those 
triggers that would come into place to level that field.
    Senator Miller. Bob.
    Mr. McLendon. Yes, sir. We at the Cotton Council have been 
looking into this because it does affect the textile industry 
and that is the reason over 70 percent of our textile apparel 
is being imported, because of the strength of the dollar. We 
can produce yarn, textile yarn, as cheap as anybody, probably 
cheaper than anybody else in the world. Our textile industry 
has made a tremendous investment in equipment so they can do 
that. One thing we have looked at as a mechanism that could be 
used to assist us to compete with the inflation in the dollar, 
is to adjust the CCC loan repayment. Anything you do is going 
to cost money, but I benefit from a strong dollar because I do 
something other than farm, and our economy seems to do well, 
except agriculture does not do well during this time.
    That is one thing that we have looked at, is some type of 
program to adjust the CCC loan repayment to some index. The 
USDA has all kind of indexes on the exchange rates throughout 
the world. That is just one example that can be used to allow 
me to be more competitive in the world, is to allow me to repay 
my CCC loan at an adjusted rate based on the currency exchanges 
in the world.
    Senator Miller. Thank you. James Lee, Murray or anyone else 
have anything on the dollar? If not, let me move on--well, 
while we are in this area, let me talk to you about or get your 
opinion on fast track. I am going to have to deal with that 
pretty soon after I get back to Washington.
    Starting over here with Bob and going down the line, what 
do you think about that?
    Mr. McLendon. I am in favor of it because it allows our 
trade negotiators to do a better job during the discussion. You 
know, as a peanut producer, NAFTA has been blasted as something 
that is going to cause a tremendous problem for us as peanut 
producers. It may or may not have, but it has helped the cotton 
industry tremendously. We are in a global economy, we are going 
to have to have these trade things, we do not need to have 
anything to tie the negotiators hands behind their backs. I am 
in full favor of it.
    Ms. McGee. Senator, I am in favor of it too, and we have to 
get our tobacco on the world market where we can get a profit 
from it. From what I have read and studied, this would help us.
    Senator Miller. Thank you.
    Mr. Campbell. Senator, have not always held that belief, I 
thought that was something that would be very dangerous and we 
needed to be wary of it. As we are moving into this area of 
more globalization and as we are changing our programs to make 
them more competitive in the world markets, I think it is 
something that is going to be absolutely essential to us to be 
able to survive as U.S. producers.
    Mr. Adams. Senator, you know that no one is going to 
negotiate with us if we do not have that provision in there, we 
need to start adding some provisions in there to protect us 
domestically and I am talking about regulatory and labor. Why 
in the world we in agriculture do not form an alliance with 
labor unions on this particular issue and some of the 
environmental groups on this particular issue, I do not know. 
It is stupid and short-sighted on our part.
    Senator Miller. Thank you. Let me throw this general 
question out for each one of you also to give me some feedback 
on.
    By now, you all have had an opportunity to review the House 
version of the new Farm bill. I have been surprised--everybody 
has reviewed it, from the way that people have come up and 
talked with me since I have been here the last couple of days. 
As a general overview, how do you feel about that House bill 
and the concept of it?
    Mr. McLendon. Senator, I will respond first.
    I like it. It does not give us everything, as I mentioned 
in my testimony, that we would like to have, but it is a 
tremendous improvement over what we have had the last three or 
four years. We have not had a safety net under the Freedom to 
Farm, prices could go just as low as they could and I would not 
be compensated in any way to allow me to survive until things 
got better. This bill provides that safety net and that is the 
No. 1 thing.
    It provides that safety net through three types of 
payments, and the counter-cyclical payments, which the Freedom 
to Farm did not have--when prices get low, then the government 
steps in to help me survive. It is complicated, it is 
different. I am old enough, I do not like to change, but I like 
the commodity part. Nobody has talked today about peanuts and 
peanuts--I used to be a peanut farmer that grew cotton and once 
I was elected president of the Cotton Council, I became a 
cotton farmer that grew peanuts. Peanuts are very important to 
me and I do like the format that the House came up with. I am a 
quota holder, I rent quota, I grow quota peanuts, I grow 
additional. This bill works for me. I have spent some time with 
it. The Cotton Council has been trying to educate me about two 
years on this counter-cyclical payment, so I was able, the 
first day I got that draft, to sit down and see not only how it 
affected me from a cotton standpoint, but peanuts.
    I like the program. The figures could change, it could be 
improved some maybe on the buyouts and some other things, but I 
like the concept.
    Senator Miller. Thank you.
    Mr. McLendon. I hope we end up with something that will 
work for me like this will now.
    Senator Miller. We may not have heard much talk on peanuts 
just in the last day or so, but Bob, I want to assure you, I 
have heard a lot of talk about peanuts----
    Mr. McLendon. I knew you had.
    Senator Miller [continuing]. Since I have been home.
    Mr. McLendon. I was not going to let the opportunity pass 
to talk about it today here either.
    Senator Miller. Talking about the House version of the Farm 
bill, what do you think?
    Ms. McGee. It is fine. I have read the majority of it, and 
going with the peanuts, most of the farmers that I have talked 
with back at home would like to see the base stay with the 
producer and I certainly understand why tobacco was not 
addressed in the bill; but overall, It is fine.
    Senator Miller. Thank you. Murray.
    Mr. Campbell. Senator, Professor Womack said it very well 
yesterday. When you overlay the counter-cyclical payments on 
the Freedom to Farm, it improves it drastically and It is a 
very good bill. It is going to be something that will be 
beneficial to us as producers for the next few years. It will 
give us some protection.
    I really cannot--it almost hurts my feelings not to be able 
to comment on peanuts, as the Chairman of the National Peanuts 
Research and Promotion Board, I am restricted in that area. 
People have a problem understanding when I am talking for 
myself and when I am not, so I will defer to my peanut 
producers here. James Lee will do it.
    [Laughter.]
    Senator Miller. James Lee has no such constraint.
    Mr. Adams. Senator, we do not have any choice, we have to 
change. I mean in light of what has gone on with NAFTA and 
Section 22 being gone, it has got to go.
    A couple of things I would be concerned about, I am 
concerned about; again, is this oligopolistic situation because 
we are essentially going to be selling to two people on this 
thing. The other thing we all need to be aware of is when this 
passes, and I assume it will, essentially we are going to take 
$200 a ton out of the economy of southwest Georgia and southern 
Georgia and that is going to be a real problem as far as the 
economic impact. Because whether that rent was paid to the 
quota holder or, in my case, grown as a quota holder and stayed 
on my far and spent in that local community, essentially that 
price could well be gone as far as a certain number of dollars. 
That is what concerns me.
    I like a couple of other things in the House bill, but I 
hope you all can take a look at Senator Harkins' green 
payments. That is going to be the wave of the future. You are 
going to be able to get some allowances with some other groups 
and be able to get some dollars. Always want more money. I was 
reminded, years ago I was at a fertilizer dealer one Saturday 
and a friend had his daughter there, young daughter about 4 
years old. The fertilizer dealer bought her some Coca-Cola and 
she was sitting there drinking the Coca-Cola. He kept looking 
at her and kept looking at her and she never did say anything, 
and he finally said to her, ``What are you going to say to the 
nice man?'' She said, ``You got any crackers to go with it?''
    [Laughter.]
    Mr. Adams. We are looking for crackers, we need them.
    Senator Miller. Let me stay down here with James Lee and 
ask you this, still talking about the new Farm bill: If 
Congress passed it by the end of the year, do you feel that you 
could adopt the new policies to your operations in time for 
next year's crop and then we will come back down the line?
    Mr. Adams. Absolutely. I can also comment as a former state 
FSA chair--thank goodness now I am former. I do not have any 
doubts that FSA can do what needs to be done from their 
perspective. Now as a farmer itself, I am used to planting 
crops and I have in the past with no programs in place. I have 
planted wheat very often and in fact been up to the point of 
harvesting wheat. You get a pretty good feel. Most of the 
farmers know what direction things are going and what-have-you 
and you may not have the final regs. We are not totally flying 
blind.
    I would much rather see us go ahead and make those changes 
now, as soon as possible, because of the gravity of the 
situation. The Georgia farmer can accommodate ourselves to it. 
We have been in a problem in the past because the midwest never 
does realize that we do plant so much earlier and harvest so 
much earlier than they do. We are used to it, Senator, we can 
take it, we can do it.
    Senator Miller. What about the rest of you on the panel, as 
far as that question is concerned. Murray.
    Mr. Campbell. Yes, sir, very definitely. I echo what James 
Lee said. The only thing I would encourage is that time is of 
the essence. I am used to flying without having the complete 
regulations in place and all, but my banker does not have quite 
the same level of risk acceptance that I do and he would prefer 
that we knew a little earlier or as early as possible.
    Ms. McGee. We could adjust to it.
    Senator Miller. Bob.
    Mr. McLendon. Yes, sir. We, not only in Georgia, but in 
visiting and meeting with cotton producers throughout the 
country, they look forward to having a new program. Because for 
the last 4 years we have been to Washington and worked to get 
economic assistance during this period of low prices, and we do 
not want to do that again. I would rather you write the bill 
and we can implement it without any problems. If our economy 
shows that the surplus will not be to the level it was when the 
calculations were made and the funds appropriated for us to 
have a 10-year bill, I am afraid the next time that calculation 
is done, there will not be as much funds and that is one main 
reason we need to go ahead and do it. The next thing is that we 
will have a better bill than we are operating under now and 
there will not be any problem with us getting it done.
    I will tell you, I want to commend the USDA and FSA for 
getting out these economic assistance packages. I would have 
bet my supper it could not have been done as quick, because it 
never has been done. We have complained about it, but it was 
just unbelievable, and we needed it in the country.
    Thank you.
    Senator Miller. Let me start with Mary Alice on this, and 
others of you can jump in after she has her answer.
    What about increases in fuel and other energy costs as far 
as producing and curing the tobacco crop, have you seen any 
change in that and I want the others to comment on the increase 
in energy costs as well.
    Ms. McGee. I the tobacco area, it has devastated us. No. 1, 
with the retrofitting of the barns, that has taken a day or 2 
days longer than usual to cook the barn of tobacco out, plus 
you have the rise of the price of the diesel or propane, 
whichever they are using. It is really cutting the bottom line.
    Senator Miller. Anyone else want to comment on that 
subject?
    Mr. Campbell. Senator, I am down there in the southwest 
Georgia corner down there, where there is a whole lot of 
irrigation and we have been blessed with some rainfall this 
year, but if we had had to do the irrigation pumping that we 
did in the last two seasons this summer, it would have cost me 
a good $50 more an acre, just with the price.
    Senator Miller. Before James Lee answers, let me just throw 
this in there; there has been some talk about putting in--
adding an energy title to the next Farm bill. What do you think 
about that?
    Mr. Campbell. It would be a great idea. One of the speakers 
this morning said that we as agriculture did not have the 
opportunity to add a fuel surcharge on like I paid a little bit 
lately on airline tickets.
    Senator Miller. James Lee.
    Mr. Adams. I would hope to go beyond that, and again, we 
need to revisit this question of energy growth off the farm. 
Dr. Buchanan and I have talked about it in the past, I think 
ought to be in that title not only maybe some help or 
assistance for energy costs, but it maybe could take a long-
term addressing of this whole energy question. For example, we 
can grow 10 times more alcohol per acre with sweet potatoes in 
Georgia than they can on an acre of corn in the midwest. Now 
why in the world are we not starting to produce some ethanol 
and alcohol in the southeast with some of these crops that we 
use and with our continuously long growing seasons and so on. 
We need to have an innovative approach on energy, not just 
short term help, but we need to have a long term look at where 
we are headed. U.S. agriculture can do a lot more than we are 
given credit for today.
    Senator Miller. You can make alcohol out of sweet potatoes?
    Mr. Adams. We have boys down home make it out of anything.
    Senator Miller. If my friends up there in the mountains had 
known that a few years ago--[Laughter.]--we would have had 
sweet potatoes all over those hills.
    Mr. Adams. We have had some folks down home do it.
    Mr. McLendon. Might have been worth me attending this 
conference to learn that, James Lee.
    [Laughter.]
    The price of energy has definitely affected all of us in 
southwest Georgia that irrigate. Not only the cost of diesel 
fuel and gasoline, but the increased cost in our fertilizer. 
Even though we have seen a little reduction in that, it is not 
going to go down to the level it once was, but last year when 
we worked on the disaster program--economic assistance program, 
we tried to get the Secretary to give some kind of surcharge 
for fuel cost increases and the Secretary got concerned--
Secretary of Agriculture got concerned that the person that was 
buying heating fuel was not going to get that adjustment and so 
they were concerned about the publicity if farmers got it and 
other people in our economy did not get it. It has increased my 
cost of production in 2000, my diesel fuel, I use about 100,000 
gallons of diesel fuel on my farm a year and it was increased a 
little over 100 percent, went from 40 something cents a gallon 
to about 90 cents a gallon.
    Mr. Adams. Senator, we have probably done some things that 
are maybe not really good for Georgia in the long run too. It 
is just amazing to see the number of irrigation systems that 
were switched in the last year from diesel, which is not 
controlled, over to electric. Long term, we may be bumping up 
against some economic growth possibilities of the state of 
Georgia by making this switch.
    Senator Miller. I see some nodding out there in the 
audience from that statement.
    We have about 15 more minutes and at this time, I would 
like to use that time for any participation from the audience. 
I will start with--he is not exactly the audience, but I will 
start with Dean Buchanan. Do you have any questions you would 
like to ask members of the panel?
    Dr. Buchanan. Yes, sir, I would like to ask one question. 
Obviously in my role as dean and director of the College of 
Agriculture and Environmental Sciences, I have responsibility 
in our state for research, extension and education programs in 
agriculture and related areas. Obviously we get support from 
several sources, beginning with counties, but also state as 
well as Federal. Obviously you can only spend a dollar one 
time, and of course our major support for our programs comes 
from the U.S. Department of Agriculture.
    I would like to ask the panelists the point: How do you see 
support of agriculture and whatever potential competition there 
is between farm programs that are directly in support of 
farmers versus support for the programs that I represent in 
research, extension and teaching?
    Mr. McLendon. I will respond first. We have to have both of 
them. We cannot take funds out of research and put it in 
commodities and vice versa.
    I mentioned yesterday in my presentation that I have been 
able to compete and grow cotton again in Georgia because of the 
research and technology that has been offered to me through the 
boll weevil eradication program and the BT development of 
cotton. We need to have both and we at the Cotton Council have 
worked for research dollars. Certainly a lot of times, I feel 
like with the varieties of cotton that we have now, we need 
better varieties and I commend you and your staff for what you 
have done to try to bring the research for new varieties in 
Georgia back to the forefront. You have done probably more--we 
as citizens of Georgia and farmers do not realize what has been 
done, that you have done. Most of the states have not taken the 
strides to try to revitalize the breeding program for cotton. I 
commend you and I have told you that before.
    I appreciate what you have done.
    Senator Miller. Anyone in the audience like to ask a 
question? If so--I see Tommy wanted to ask a question--if so, 
stand and if you want to address it to one of the panelists or 
all of them, however you want to do it.
    Mr. Irvin. Probably I would rather just address it to you, 
Senator.
    The panel has done a great job covering many aspects of 
agriculture. Maybe to beef up some of the things that have 
already been said, that you are looking at phasing out the 
peanut program, you ought to give some serious consideration 
maybe to a buyout program for tobacco. It is essential that we 
have parity, because those two allotments programs are kind of 
unique to Georgia. I know that has been on your agenda.
    In the panel earlier today there was strong support for 
minor crops as we move into additional crops. They are non-
program crops but as I in my presentation made mention of the 
$169 million that was put in for fresh fruits and vegetable 
promotion, that kind of expenditure will be very helpful.
    Then in the broad area of energy, you mentioned some of the 
major ones, but there is one you did not mention. I was 
wondering why one of the panelists did not mention this, the 
fuel oil for chickens, it is a vital part of our total 
industry. An energy policy ought to be all inclusive, not just 
leave out--take in part of them.
    These are some major issues that Congress needs to consider 
and I wholeheartedly support a very expanded energy policy. 
From what I understand, the President has interest in that area 
but I am not sure he has taken an all inclusive approach to the 
energy. It is something that Congress can help guide the 
President as we try to solve some of the major things that are 
affecting our farm community.
    These are just a few of the things that you have talked 
about here with the panel, but to cover a view that maybe the 
cracks, we chink those to make sure we have an all inclusive 
farm program.
    I do want to commend you for your interest in being on the 
Ag Committee, I would have been disappointed if you did not ask 
for it. You have had a good conference here and I am glad I had 
a little part in it.
    Senator Miller. Thank you, Commissioner.
    Yes, Mr. Bouis.
    Mr. Bouis. Picking up on that provocative suggestion that 
you could make alcohol out of sweet potatoes, I wonder if you 
would expand a little bit on your ideas of expanded 
agricultural research into new products, new ways of doing 
things and new places to go. One of the things that I think 
about is that we have a humongous quantity of wet citrus pulp 
in Florida that we do not know exactly what to do with.
    Mr. Adams. One thing we have missed the boat on, Senator, 
there should not be any waste product at all on the farm. You 
are probably familiar with what we have done on our farm. I had 
a son-in-law that is real bright and he came back and we had 20 
chicken houses and we had about 3000 pounds of dead chickens we 
could not dispose of any way that I want to talk about in 
public. It was costing us money if we did it legally. He got us 
in the alligator business. We have 16,000 alligators and now 
that is a tremendously good profit center on that.
    What we have to do is take the blinders off. I have asked 
Murray and some others to look at this: For example, peanuts, 
right now as you probably know, they are putting pharmaceutical 
products into bananas, hepatitis B vaccine, doing the human 
trials right now. We ought to be--we do not grow that many 
peanuts in Georgia--I mean bananas in Georgia. We ought to have 
that in the peanut. If you have 200 million Chinese that need 
that hepatitis B protection and that is probably the number. I 
can just see the doctors over there telling them, hey, you have 
to eat two peanuts a day or one peanut a day. All a sudden we 
have gone from $600 a ton peanuts to $60,000 a ton peanuts and 
we have to have armed guards out there to keep those peanuts 
protected.
    [Laughter.]
    Mr. Adams. We are starting to change the economy around 
when we start doing that, but I think the problem we have right 
now is we have locked our minds down and have not really 
broadened it broad enough to see what really agriculture is and 
can be.
    Mr. Bouis. Thank you.
    Senator Miller. Any other question?
    Mr. Echols. Yes. Thank you, Senator, I am Jimmy Echols from 
Hall County, Georgia. I am a fruit grower and I have followed 
all these discussions with a great deal of interest.
    I had a crop failure in 1990 and in 1991 or 1992 the 
government came up with about a billion dollars that they paid 
out to farmers as disaster payments. That was my first 
experience at getting a handout from the government. That is 
what we old-timers used to call it. I guess now it has become a 
way of life for a lot of folks, from what I have heard here.
    The government did get back a big percentage of that 
because I did not have income averaging at the time and the 
payment was made in a year when I did have a crop, and so they 
got back 40 percent or so of that money back when I filed my 
tax return.
    I would like to add to what the Dean has said and ask you 
this, if we had some research that would help us to overcome 
freezes in the fruit business and some of the other problems we 
have in the fruit business so we might not have to have a 
disaster payment, if we spent more money on research, I would 
rather--it would help me and my family more and my customers 
more--if I had a crop, I would not have to have a disaster 
payment. I would put in a plug for additional funds for 
research and extension to get that research out to the farmers.
    Thank you.
    Senator Miller. Thank you. That we are probably going to 
have to bring this to an end now.
    I want to thank all of you out there in the audience who 
have stayed here and participated in this hearing. Whenever we 
first started putting this hearing together, I expected the 
four of us, me and some of my staff and maybe Dean Buchanan to 
be here for it. I thank all of you for your interest in staying 
around. It has been very worthwhile.
    I also want to thank three members of my staff who have 
worked very hard helping me and helping Dean Buchanan with this 
symposium--Alex Albert, who is my chief of staff has already 
gone, he had to catch a plane back to DC, he just left a few 
minutes ago, he waved at me as he went out the door, he stayed 
on here with me as my chief of staff after having been with 
Senator Coverdell as one of his agricultural LAs for a number 
of years. I am deeply grateful to Alex.
    I also want to thank Jody Redding, who was part of your 
planning committee and who represents me and who also stayed on 
with me after Senator Coverdell's death. Where is Jody? Thank 
you.
    Wes Higginbotham, who is right here behind me. He is the 
son of an Arkansas farmer, I stole him away from Senator 
Blanche Lincoln and he is doing me a great job as my 
agricultural LA.
    The reason I specifically mentioned these three men is 
because not only do I want to thank them here in front of all 
of you, but I also want you to know that if you need to get in 
touch with me about anything that relates to agriculture or 
anything else, for that matter, but as far as agriculture, Jody 
and Wes and Alex would be certainly somebody you could go to 
and they will get it to me just right away and I will get right 
back with you if it is something that I need to get back with 
you on.
    I really appreciate you four panelists. Mary Alice, I am 
sorry you had to drive so fast and so hard this morning to get 
here, but thank you very much for being here. Bob and Murray 
and James Lee.
    It is always good to hear from folks who know the problem 
first-hand, who are on the front lines, who deal with it, as 
they say this day, what is it, 24/7--is that not what they 
mean, around the clock, every day of the week? You are there on 
the ground, you know what is going on and it is good to hear 
from you. You have given me some good thoughts, some good 
ideas, some good testimony that I can take back. it has been 
very frank, been very, to me, very informative. It has been 
very practical. It is not some pie in the sky idea and I 
appreciate it. There is some really good stuff that I can take 
back with me to make a part of the testimony that the 
Agriculture Committee is putting together right now. I am very 
grateful to you. I appreciate what you mean to the state of 
Georgia.
    Thank all of you again. Dean Buchanan, thank you for 
everything you do. Have a safe trip back home.
    [Whereupon, at 2:15 p.m., the hearing was concluded.]


</pre></body></html>
